No.

Supreme Court of tfjc fHntteb ^tateo
CHAD ALAN SODERMAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
APPENDIX
COMES NOW PETITIONER Chad Alan Soderman and submits the attached
appendix pursuant to Supreme Court Rules.
Chad Alan Soderman
Petitioner
44905-013
9595 West Quincy Avenue
Littleton, CO 80123
Date:

19

>

i

t
t

APPENDIX A
ORDER & JUDGMENT OF THE COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
DATED 12-21-20

United States v. Soderman
United States Court of Appeals for the Eighth Circuit
September 25,2020, Submitted; December 21,2020, Filed
No. 19-2879
Reporter
983 F.3d 369 *; 2020 U.S. App. LEXIS 39884 **; 2020 WL 7483576
United States of America, Plaintiff - Appellee v.
Chad Alan Soderman, Defendant - Appellant

Subsequent History: Rehearing denied by, En
banc, Rehearing denied by United States v.
Soderman, 2021 U.S. App. LEXIS 2198 (8th Cir.,
Jan. 26, 2021)

Prior History: |**1J Appeal from United States
District Court for the Southern District of Iowa Council Bluffs.

Counsel: For United States of America, PlaintiffAppellee: Michael Brian Duffy, Richard E.
Rothrock, Assistant U.S. Attorney, U.S. Attorney’s
Office, Council Bluffs, IA.
For Chad Alan Soderman, Defendant - Appellant:
Christopher James Roth, Guy Kriss Weinstein,
Roth & Weinstein, Omaha, NE.
Chad Alan Soderman, Defendant - Appellant, Pro
se, Littleton, CO.

Judges: Before KELLY, WOLLMAN, and
STRAS, Circuit Judges.

Opinion by: WOLLMAN

Opinion
1*372] WOLLM AN, Circuit Judge.
Chad Alan Soderman entered conditional pleas of
guilty to possession with intent to distribute
controlled substances in violation of 21 U.S.C. §
841(a)(1), (b)(1)(A) and possession of a firearm in
furtherance of drug trafficking in violation of 18
U.S.C. § 924(c)( 1 )(A)(I). On appeal, Soderman
contends that the district court1 erred in denying his
motion to suppress evidence obtained from his
seized vehicle and his statements made during the
traffic stop. We affirm.
I. Background
At approximately 7:30 a.m., July 7, 2018, Iowa
State Trooper Matthew Raes pulled Soderman over
for driving seventeen miles per hour above the
speed limit on Interstate 80 near Council Bluffs,
Iowa. Soderman appeared unkempt, had an
unpleasant body odor, and was |**2] nervously
tapping his steering wheel. Raes observed two large
duffel bags, aftermarket wires, snacks, and energy'
drinks within the vehicle’s passenger compartment.
Raes asked Soderman to exit his vehicle and sit in

1 The .Honorable Rebecca Goodgame Ebinger, United States District
Judge for the Southern District of Iowa.

Soderman Appendix A1

Page 2 of S
983 F.3d 369, *372; 2020 U.S. App. LEXIS 39884, "2

the front seat of the patrol car, which Soderman did
after demonstrating some initial reluctance to doing
so. Soderman told Raes that he was traveling from
Colorado to Minnesota to visit his father and dying
stepmother.
While completing a records check, Raes discovered
that Soderman's Colorado drivers |*373| license
had been suspended for unpaid child support.
Soderman disputed the suspension and became
more agitated, repeatedly stating that he had made
the required support payments. Believing that he
had observed indicia of drug trafficking, Raes
called Council Bluffs Police Officer Kaila
Merchant, who was trained in drug interdiction and
had worked as a law enforcement officer for
approximately eight years, to obtain a more
experienced assessment Because he could not
lawfully continue to drive with a suspended license,
Soderman called a tow truck company and his
stepmother, demanding that she immediately drive
to Iowa to meet him.
Officer Merchant arrived before the arrival
of 1**3] the Sodcrman-summoned tow truck. Like
Raes, Merchant also observed Soderman's behavior
and appearance and viewed the contents of his
vehicle’s passenger compartment.
Because
Soderman was confused about his exact location,
he handed his phone to Merchant so that she could
provide his father with directions. During her
conversation with him, Merchant asked Soderman's
father if Soderman had been involved in drug
trafficking, to which Soderman’s father responded
either, "not for a long time," or, "well not recently."
Although Soderman's father stated that they had
previously discussed an unspecifieddate visit, he
said that he did not know that Soderman was on his
way to Minnesota at the moment. In response to
Merchant's query, Soderman told her he had had a
problem with drugs ;in the past but bad been clean
for years. He admitted to having smoked marijuana
in the car while in Colorado.

probable cause to believe that there would be
evidence of drug paraphernalia within the car. She
decided to seize the vehicle and requested a second
tow truck. Raes issued Soderman tickets for
speeding and for driving [**4| with a suspended
license. Upon the arrival of the SodermanrCqUCstcd tow truck, Merchant informed the driver
||iaj S|le intended to use a different towing
COmpany, whereupon the tow truck departed.
shortly thereafter—and seventy-five minutes after
tj,e (raffjc S(0p began—Soderman walked away
from |hc scene before the segond tow truck arrived,
leaving his vehicle with Raes and Merchant. The
Merchant-summoned tow truck arrived and towed
Soderman's car to the impound lot. Merchant
submitted to a state judge the application and the
afyldavjt needed to obtain a search warrant, but
mjstakeniy failed to submit the required warrant
i(se)f Be|ievijlg that s|ie had obtained a valid
warrant. Merchant searched Soderman's vehicle,
disCoVcrjng methamphctaminc, marijuana, a loaded
firearm, magazines and ammunition, and a digital
scale in the trunk.
Arguing that the warrant was invalid, Soderman
moved to suppress the evidence obtained from his
vejjjclc, as well as the statements that he made
during the traffic stop. Following the district court’s
denial of the motion, Soderman entered conditional
guj]ty pleas and was sentenced to 180 months'
imprisonment.
II. Discussion

"We review the denial of a motion to 1**5]
suppress de novo but review underlying factual
determinations for clear error, giving 'due weight*
to the inferences of the district court and law
enforcement officials." United States v. Robbins.
682 F,3d 1111, 1115 (8th Cir. 2012) (quoting
United States v. Replogle. 301 F.3d 937, 938 (8th
Cir. 2002)). "We will affirm the denial of a motion
to suppress unless the district court’s decision was
unsupported by substantial evidence, was based on
Based on her observations and law enforcement an erroneous interpretation of applicable law, or
experience. Merchant concluded that she had was 1*374] clearly mistaken in light of the entire
record." United States v. Murillo-Salgado. 854 F.3d

Soderman Appendix A2

Page 3 ofS
983 F.3d 369, *374; 2020 U.S. App. LEXIS 39884, "5

407. 414 (8th (Tit. 2017> (citing United States v.
Woods, 829 F.3d 675, 679 (8th Cir. 2016)). We
may affirm the denial of a motion to suppress on
any ground that the record supports. Id.
A. Traffic Stop
Soderman first argues that Raes unlawfully
extended the initially valid traffic stop in violation
of Rodriguez v. United States. 575 U.S. 348, 135 S.
Ct. 1609, 191 L. Ed. 2d 492 (2015), thereby giving
Merchant time to arrive on the scene, develop
probable cause, and seize the vehicle.
Because it is subject to Fourth Amendment
protections against unreasonable searches and
seizures, a traffic stop must be supported by either
reasonable suspicion or probable cause. United
States v. Chattier. 772 F.3d 539, 543 (8th Cir.
2014). A constitutionally permissible traffic stop
becomes unlawful when its length exceeds the time
needed to attend to the stop's "mission" and "related
safety- concerns." Rodriguez, 575 U.S. at 354
(internal citations omitted). An officer may
lawfully continue a traffic stop until "tasks tied to
the traffic infraction ]**6| are—or reasonably
should have been—completed." Id. What
complications arise "in carrying out the trafficrelated purposes of the stop, . . . police may
reasonably detain a driver for a longer duration than
when a stop is strictly routine." United States v.
Olivera-Mendez. 484 F.3d 505, 510 (8th Cir. 2007).
To address related safety- concerns, an officer maytake actions to "ensurfe) that vehicles on flic road
arc operated safely and responsibly," including
checking the driver's license. Rodriguez, 575 U.S.
at 355. But without reasonable suspicion, an officer
may not conduct unrelated cheeks that extend the
stop beyond the time reasonably required to
complete its original mission, Id

Garzo. 752 F.3d 1161, 1164 {8th Cir. 2014)
(concluding that when none of the occupants of a
vehicle were licensed to drive, the officer was
permitted "to engage in a community caretaking
function of safely moving the vehicle and its
occupants from the side of the road"). Raes
expressed to Soderman his concern about the
dangerousness of the vehicle's road-shoulder 1**7]
placement in light of the interstate's curvature at
that point. The confluence of Soderman’s decision
to call a tow truck, Merchant’s arrival, and. as
discussed below, her development of probable
cause to seize the vehicle vitiates any claim that the
stop was unlawfully prolonged,
Contrary to Sodcrman's arguments, United States v.
Pcralez, 526 F.3d 1115 (8th Cir. 2008), is
inapposite. In Peralez, an officer found nothing
"unusual or out of place" with the driver's license or
vehicle registration; the stop was delayed entirely
because of the officer’s drug-interdiction
questioning. Id. at 1120. Here, unlike in Peralez.
the length of the stop was directly related to the
community caretaking function of ensuring the safe
removal of the vehicle and not to unrelated
questioning or to the awaiting of another officer's
arrival. Cf. United States v. Davis, 943 F.3d 1129,
1133 (8th Cir. 2019) ("This stop is easily
distinguishable (from Peralez] and involves
traditional bases of reasonable suspicion justifying
an extension.").
B Vehic|c Seizure & Search

Soderman next argues that Merchant lacked
probable cause to search and seize |*375| the
vehicle and that the evidence obtained from within
the vehicle should therefore have been suppressed,
In the absence of a judicially authorized warrant,
address
whether
Merchant
had
we
independent |**8] probable cause to conduct a
Raes’s discovery that Soderman’s driver’s license warrantless search of Soderman’s vehicle under the
had been suspended justifiably extended the lawful automobile exception.
scope of the traffic stop because of Soderman's
legal inability to remove the vehicle from the scene Although a warrantless search usually constitutes a
and the consequential need for a licensed driver or per se Fourth Amendment violation, the automobile
a tow truck to do so. See United States v. Qvando- exception to the Fourth Amendment’s warrant

Soderman Appendix A3

Page 4 of 5
983 F.3d 369, '375; 2020 U.S. App. LEXIS 39884, "8

requirement permits the warrantless search or
seizure of a vehicle by officers possessing probable
cause to do so. Chambers v. Maronev, 399 U.S. 42,
51-52, 90 S. Ct. 1975, 26 L. Ed. 2d 419 (1970).
"Probable cause exists when, given the totality of
the circumstances, a reasonable person could
believe there is a fair probability that contraband or
evidence of a crime would be found in a particular
Place." Murillo-Salgado, 854 F.3d at 418 (quoting
United States v. Wells, 347 F.3d 280. 287 (8th Clr.
2003)). A combination of otherwise innocent
.factors may create probable cause. Illinois v. Gates.
462 U.S. 213, 243 n.13, 103 S. Ct. 2317, 76 L. Ed.
2d 527 (1983). Because "[pjrobablc cause is a
practical and common-sensical standard," "an
officer may draw' inferences based on his own
experience" to determine whether probable cause
exists. Murillo-Salgado. 854 F.3d at 418 (internal
quotation marks and citations omitted).
Merchant developed probable cause to believe
Soderman’s car contained evidence of drug
trafficking while Raes was addressing the issue of
Soderman's suspended license and related vehicle
removal. As set forth in her police report, Merchant
saw the aftermarket wires in Sodennan’s vehicle,
from which she inferred that the vehicle might have
been manipulated |**9J
to conceal drugs,
Merchant also saw Soderman's snacks and energy
drinks, which, in combination with his disheveled
appearance and malodorous state, indicated that he
might have been driving for a long period of time
without stopping for food or a shower. See United
States v. Mayo. 627 F.3d 709, 711, 714 (8th Cir.
2010) (police had probable cause to search vehicle
in part because its "lived-in" look could indicate the
"’hard travel’ common to drug couriers who drive
for long periods without stopping").

to search vehicle in part because of defendants’
nervousness). Lacking a valid license, Soderman
stated that he intended to tow his vehicle from
Council Bluffs to an unspecified location near the
Minnesota-lowa border, where he anticipated being
picked up by his father and his accompanying
stepmother, who Soderman said was dying and who
had been released from the hospital three days
prior. Soderman also insisted on not being
separated 1**10J from his vehicle. Moreover,
Soderman’s father expressed surprise that
Soderman was en route and acknowledged that
Soderman had a history of drug trafficking. See
United States v. Hill. 386 F.3d 855, 858 (8th Cir.
2004) (police had probable cause to search vehicle
in part because of defendant's "reputation for
engaging in drug activity”); cf. Mayo, 627 F.3d at
714 (police had probable cause to search vehicle in
part because of defendants’ inconsistent travel
stories). The cash that Soderman carried was less
than thc amount wc have found sufficient to
establish probable cause, but when considered with
tj,e factors noted above, his bulging wallet
contributed ] *376] to the circumstances giving
rise to probable cause.
The automobile exception may apply even when
there is little to no chance that the vehicle will be
moved or its contents destroyed. Cady v.
Dombrowski. 413 U.S. 433, 441-42, 93 S. Ct.
2523,37 L. Ed. 2d 706 (1973). Officers armed with
probable cause "may conduct a warrantless search
of the vehicle, even after it has been impounded
and is in police custody." United States v. Bettis,
946 F.3d .1024, 1030 (8th Cir. 2020) (quoting
Michigan v. Thomas. 458 U.S. 259, 261, 102 S. Ct.
3079, 73 L. Ed. 2d 750 (1982) (per curiam)). The
automobile exception continues to apply to
impounded vehicles when an immediate search
could have been conducted on the scene. Brewer v.
Wolff. 529 F.2d 787, 792 (8th Cir. 1976)
(interpre,jng Texas v. White. 423 U.S. 67, 96 S. Ct.
46 j ^ 2d 209 (1975))

Soderman's conduct during the stop also
contributed to Merchant's belief that there was
probable cause to search the vehicle. The dashcam
recording from Raes’s patrol car indicates that
throughout the stop Soderman was agitated,
nervous, breathing heavily, and confused about his We therefore reject Soderman's argument that, even
location. See id. at 714 (police had probable cause if she had probable cause to seize Soderman’s car,

Soderman Appendix A4

Page 5 of 5
983 F.3d 369, *376; 2020 U.S. App. LEXIS 39884, **10

Merchant
was required to obtain a warrant
prior to searching the impounded vehicle. See
Bettis. 946 F.3d at 1030. Merchant intended to
obtain confirmation from a magistrate that she had
probable cause prior to conducting a search. The
judge confirmed her probable cause determination
by signing her application and affidavit,
notwithstanding the absence of a warrant. Practical
considerations supported Merchant’s decision to
move the vehicle prior to the search. Merchant's
dashcam recordings show numerous semi-trucks
and passenger vehicles passing by the three
shoulder-parked vehicles during the stop. Sec id.
(noting that the officers were not required to obtain
a warrant before properly "conducting] a more
thorough search than flashlights on the shoulder of
a busy highway allowed"). We therefore agree with
the district court that the automobile exception to
the warrant requirement permitted Merchant to
conduct a warrantless search of Sodcrman’s car
following its removal from the scene.
C. Miranda Warning
Soderman next argues that he was subjected to a
custodial interrogation during the traffic stop, that
he never received a Miranda warning, and that his
statements made during the stop should thus be
suppressed.

custody during the roadside questioning that is
permitted during a traffic stop. Berkemer v.
McCarty. 468 U.S. 420, 439-40, 104 S. Cl. 3138,
82 L. Ed. 2d 317 (1984).
Wc conclude that Soderman was hot in custody
during the traffic stop. See United States v.
Hollcman. 743 F.3d 1152, 1159 (8th Cir. 2014)
(listing factors—like whether the suspect was free
to move and to leave, whether the officers used
deceptive stratagems, and whether the suspect was
under arrest—to consider when determining
|*377| whether a person is in custody (quoting
United Slates v, Griffin. 922 F.2d 1343, 1349 (8th
Cir. 1990)). Although Soderman was temporarily
detained, only two officers were present during the
stop. See Berkemer. 468 U.S. at 438-39 ("The fact
that the detained motorist typically is confronted by
only one Or at most two policemen further mutes
his sense |**J3] of vulnerability."). And although
Raes asked Soderman to sit in the patrol car during
the stop, Soderman was neither handcuffed nor
forced to sit in the back seat. He thus retained a
degree of tree movement, as reflected by his
frequent gestures, body movement, and statements,
and was not constrained to the degree associated
with a formal arrest. See United States v. Jones.
269 F.3d 919, 924 (8th Cir. 2001) ("[A] police
officer, incident to investigating a lawful traffic
stop, may . . . request that the driver wait in the
patrol car....”). Throughout the stop, Raes offered
to take Soderman to a gas station and at no time
said that Soderman would continue to be detained
after the stop concluded. Although Merchant
suggested that she would call a drug dog, Soderman
was free to leave once the traffic tickets were
issued. The district court thus properly denied the
motion to suppress his statements.

Miranda 1**121 warnings are required only when a
person is in custody, because they are intended to
"protect the individual against the coercive nature
of custodial interrogation." United States v.
Thomas. 664 F.3d 217, 222 (8th Cir. 2011)
(quoting J.D.B. v. North Carolina. 564 U.S. 261,
270, 131 S. Ct. 2394, 180 L. Ed. 2d 310 (2011)).
"Whether a suspect is 'in custody' is an objective
inquiry," where wc assess both "the circumstances
surrounding the interrogation" and "whether a
The judgment is affirmed.
reasonable person would have felt at liberty to end
the interrogation and leave." Id. (citing J.D.B.. 564
U.S. at 270). A stop is not custodial if it does not
End of DnennKmt
constrain the defendant "to the degree associated
with an arrest." United States v. Pelavo-Ruelas. 345
F.3d 589, 593 (8th Cir. 2003). Although stopped
drivels are detained, they are generally not in

Soderman Appendix A5

APPENDIX B
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
ENTERED 8-20-19

Case l:18-crj00044-RGE-HCA Document 56 Filed 08/20/19 Page 1 of 7
AO 245B {Rev. 03/19) Judgment in a Criminal Case
YJ
Sheet I

United States District Court
SOUTHERN DISTRICT OF IOWA
)
JUDGMENT IN A CRIMINAL CASE
UNITED STATES OF AMERICA
)
v.
)
)
Case Number: 1:18-CR-00044-001
Chad Alan Soderman
)
)
USM Number: 44905-013
)
Christopher J. Roth
)
Defendant's Attorney

THE DEFENDANT:
(^pleaded guilty to count(s)

One and Three of the Indictment filed on July 31,2018,

□ pleaded nolo contendere to coum(s)
which was accepted by the court.
□ was found guilty on count{s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section

Q

Offense Ended

Nature of Offense

ir
^21 U.S.C.tji 841 (a)(1),

c

Possession with Intent to Distribute at Least 50 Grams of

07/07/2018

Count
One

Methamphetamine and Marijuana

841(b)(1)(A)

T
18 U.S.C. § 924(cK1 )(A)(i)

Possession of a Firearm in Furtherance of Drug Trafficking

I
07/07/2018

Three

f~l See addition,-il count(s) oh page 2
The defendant is sentenced as provided in pages 2 through 7
Sentencing Reform Act of 1984.

of this judgment. The sentence is imposed pursuant to the

□ The defendant has heen found not guilty on count(s)

l*fCoimt(s)

Two

Sf is

□ are dismissed on the motion of the United States.

Jt is ordered that the defendant must notify the United States Attorney for this district within 30 days of any change of name, residence,
ormailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
August 20, 2019
Date of Imposition ofJudgment

Signature of Judge

ff

Rebecca Goodgame Ebinger, U S. District Judge
Title ofJudge
Name of Judge
August 20, 2019
Date

Soderman Appendix B1

Case l:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 2 of 7
AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 2 — Imprisonment
vl

Judgment Page: 2 of?
DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:18-CR-00044-001

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:
120 months as to Count One, plus 60 months as to Count Three of the Indictment filed on July 31,2018, to be served
consecutively, for a total of 180 months.

Pf The court makes the following recommendations to the Bureau of Prisons:
That the defendant be placed at FCI Sandstone. Additionally, that he be afforded the opportunity to participate in vocational
training related to HVAC and/or carpentry, as well as the 500-hour Residential Drug Abuse Program.

Sf The defendant is remanded to the custody of the United States Marshal.
□ The defendant is remanded to The custody of the United States Marshal for surrender to the ICE detainer.
□ The defendant shall surrender to the United States Marshal for this district:
□ a.m.

□ at

□ p.m.

on _______________ ______________

□ as notified by the United States Marshal.
□ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
□ before

On

O as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.

RETURN
] have executed this judgment as follows:

Defendant delivered on
a

to

__ , with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEriJTy UNITED STATES MARSHAL

Soderman Appendix B2

Case l:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 3 of 7
AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheet 3 — Supervised Release
vl
judgment Page: 3 of 7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:18-CR-OOQ44-001

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of:
Five years as to each of Counts One and Three of the Indictment filed on July 31,2018, to be served concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.
S.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
□ The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse, (check ifapplicable)
□ You must make restitution in accordance with 18 U .S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution, (check fapplicable)
&You must cooperate in the collection of DNA as directed by the probation officer, (check ifapplicable)
Q You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, etseg.)
as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside, work,
are a student, or were convicted of a qualifying offense, (check fapplicable)
□ You must participate in an approved program for domestic violence, (check fapplicable)

You roust comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

Soderman Appendix B3

Case l:l8-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 4 of 7
AO 245B (Rev. 03/19) Judgment in o Criminal Case
Sheet 3A — Supervised Release
vl

DEFENDANT:

Judgment Page: 4 of?

Chad Aian Soderman

CASE NUMBER: 1:1B-CR-00044-001

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.
11.
12.

13.

You must report to the probation office in the federal judicial district where you arc authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different lime
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. Ifyou plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. I f notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work bill time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at leasl 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon ( i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. probation Office Use Only
A US. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
j udgment containing these conditions. For further information regarding these conditions, see Overview ofProbation and Supervised
Release Conditions, available at: www.uscourts.gov.
Date

Defendant's Signature

Soderman Appendix B4

Case l:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 5 of 7
AO 245B (Rev. 03/19) Judgment in a Criminal Case
vt

Sheet 30 — Supervised Release
Judgment Page: 5 of 7

DEFENDANT: Chad Alan Soderman
CASE NUMBER; 1:18-CR-00044-001

SPECIAL CONDITIONS OF SUPERVISION
You must participate in a cognitive behavioral treatment program, which may include journaling and other curriculum
requirements, as directed by the U.S. Probation Officer.
You must submit to a mental health evaluation. If treatment is recommended, you must participate in an approved
treatment program and abide by all supplemental conditions of treatment Participation may include inpatient/outpatient
treatment and/or compliance with a medication regimen. You will contribute to the costs of services rendered (co-payment)
based on ability to pay or availability of third-party payment.
You must participate in a program of testing and/or treatment for substance abuse, as directed by the Probation Officer,
until such time as the defendant is released from the program by the Probation Office. At the direction of the probation
office, you must receive a substance abuse evaluation and participate in inpatient and/or outpatient treatment, as
recommended. Participation may also include compliance with a medication regimen. You will contribute to the costs of
services rendered (co-payment) based on ability to pay or availability of third-party payment. You must not use alcohol
and/or other intoxicants during the course of supervision.
You must comply with the terms and conditions ordered by the Department of Health and Human Services for the State of
Colorado, in case identification number 03938448457A, requiring payments toward child support arrears for M.B.
You will submit to a search of your person, property, residence, adjacent structures, office, vehicle, papers, computers (as
defined in 18 U.S.C. § 1030(e)(1)), and other electronic communications or data storage devices or media, conducted by a
U.S. Probation Officer. Failure to submit to a search may be grounds for revocation. You must wam any other residents or
occupants that the premises and/or vehicle may be subject to searches pursuant to this condition. An officer may conduct
a search pursuant to this condition only when reasonable suspicion exists that you have violated a condition of your
release and/or that the area(s) or item(s) to be searched contain evidence of this violation or contain contraband. Any
search must be conducted at a reasonable time and in a reasonable manner. This condition may be invoked with or
without the assistance of law enforcement, including the U.S. Marshals Service.

Soderman Appendix B5

Case l:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 6 of 7
AO 24513 {Rev. 03/19) Judgment in n Criminal Case
Sheet $ —Criminal Monetary Penalties
vl
Judgment Page: 6 oF7

DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1:1S-CR-00044-001

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet G.
□ Pursuant to 18 U.S.C. § 3573, upon the motion of the government, the Court hereby remits the defendant's Special Penalty
Assessment; the fee is waived and no payment is required.
Restitution
Fine
Assessment
JVTA Assessment *
$0.00
S0.00
S 0.00
TOTALS
S 200.00
. An A mended Judgment in a Criminal Case (AO 24SC) will be entered

□ The determination of restitution is deferred until
after such determination.

□ The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportionedpayment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfcdcral victims must be paid
before the United States is paid.
Restitution Ordered

Total Loss**

Name of Payee

T

[.

Priority or Percentage
j

J

[
[

r.

i
j

so.oo

TOTALS

$0.00

□

Restitution amount ordered pursuant to plea agreement $

□

The defendant must pay interest on restitution and a fine of more than $2,500. unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

□

The court determined that the defendant does not have the ability to pay interest and it is ordered that;
□ the interest requirement is waived for the
□ the interest requirement for the

□

fine

□ fine

□ restitution.

□ restitution is modified as follows:

♦ justice for Victims of Trafficking Act of2015. Pub. L. No. 114-22.
** Findings for the total amount oflosses are required under Chapters 109A, 110,110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23,1996.

Soderman Appendix B6

f.

Case i:18-cr-00044-RGE-HCA Document 56 Filed 08/20/19 Page 7 of 7
AO 245B (Rev. 03/19) Judgment in a Criminal Case
Sheets — Schedule of Payments
v\
Judgment Page: 7 of 7
DEFENDANT: Chad Alan Soderman
CASE NUMBER: 1;18-CR-00044-001

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay. payment of the total criminal monetary penalties is due as follows:
A

Lump sum payment of S 200.00

due immediately, balance due

□
IB^

□

not later than
in accordance

□ C, □ D,

• or
E, or

(^F below; or
□ F below); or

□

Payment to begin immediately (may be combined with

C

□

Payment in equal
(<■ <_>, months

D

□

over a period of
fe.g., weekly, monthly, quarterly) installments of $
Payment in equal
(e.g.. 30 or 60 days) after release from imprisonment to a
fe.g.. months or years), to commence
term of supervision; or

E

□

fe.g.. 30 or 60days) after release front
Payment during the term of supervised release will commence within
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

□ C.

□ D. or

B

over a period of
(e.g., weekly, monthly, quarterly) installments of S
(e.g, 30 or 60 days) after the date of this judgment; or
. to commence

Special instructions regarding the payment of criminal monetary penalties:
All criminal monetary payments are to be made to the Clerk's Office. U.S. District Court, P.O. Box 9344,
Des Moines, IA. 50306-9344.
While on supervised release, you shall cooperate with the Probation Officer in developing a monthly payment plan
consistent with a schedule of allowable expenses provided by the Probation Office.

Unless the court has expressly^ordered otherwise, if thisjjudgment imposes imprisonmenb payment of cnrnmalmonetary jjcnalties is due during
Financial Responsibi lity Program, arc made to tire clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

□

Joint and Several
Defendant and Co-Defendant Names and Case 'Numbers {including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

□

Tile defendant shall pay the cost ofprosecution.

□

Hie defendant shall pay the following court cost(s):

5^ The defendant shall forfeit the defendant’s interest in the following properly to the United States:

A loaded, Kel-Tec, P11, nine-millimeter pistol (serial number AP365) and ammunition, as listed in the Indictment filed
on July 31, 2018, and agreed to in the written plea agreement.
Payments shall be applied in the following order: (!) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,(5) fine
interest, (6) community restitution, (7) JVTA assessment, and (8) costs, including cost of prosecution and court costs.

Soderman Appendix B7

APPENDIX C
ORDER OF THE COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
DATED 1-26-21

United States v. Soderman
United States Court of Appeals for the Eighth Circuit
January 26,2021, Decided
No: 19-2879
Reporter
2021 U.S. App. LEXIS 2198 *
United States of America, Appellee v. Chad Alan
Soderman, Appellant

The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
January 26, 2021

Prior History: 1*1] Appeal from U.S. District
Court for the Southern District of Iowa - Council
Bluffs. (1:18-cr-00044-RGE-l).

End of Document

United States v. Soderman, 983 F.3d 369,2020
U.S. App. LEXIS 39884 (8th Cir. Iowa, Dec. 23 ,
2020)

Counsel: For United States of America, PlaintiffAppellee: Michael Brian Duffy, Assistant U S.
Attorney, Richard E. Rothrock, Assistant U.S.
Attorney, U.S. Attorney’s Office, Council Bluffs,
IA.
For Chad Alan Soderman, Defendant - Appellant:
Christopher James Roth, Guy Kriss Weinstein,
Roth & Weinstein, Omaha, NE.
Chad Alan Soderman, Defendant - Appellant, Pro
se, Littleton, CO.

Opinion

ORDER

Soderman Appendix C1

t

i

APPENDIX D
USDC ORDER DENYING MOTION TO SUPPRESS
ENTERED 1-17-19

Case 1:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
WESTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,

No. 1:18-cr-00044-RGE-HCA

v.

ORDER DENYING DEFENDANT’S
MOTION TO SUPPRESS EVIDENCE

CHAD ALLEN SODERMAN,
Defendant.
I.

INTRODUCTION
An Iowa state trooper pulled over Defendant Chad Alan Soderman for speeding.

During the traffic stop, the trooper discovered Soderman was driving with a suspended license.
As the trooper and another responding officer arranged for Soderman’s car to be towed, they
developed suspicion Soderman was trafficking drugs. Soderman’s car was towed and impounded.
The officer prepared a warrant application to search Soderman’s car and a judge signed it.
The officer searched the car. Later, the officer discovered the judge had signed only the application
for a warrant and not an actual warrant. Soderman moves to suppress the statements he made
during the stop and the contraband found in his car. For the reasons set forth below, the Court
denies Soderman’s motion.
II.

BACKGROUND
Before the Court is Soderman’s Motion to Suppress. ECF No. 24. The matter came before

the Court for hearing on December 17, 2018. Hrg Mins. Def.’s Mot. Suppress, ECF No. 34.
Attorney Christopher I. Roth appeared on behalf of Soderman. Id. Assistant United States Attorney
Michael Brian Dufly appeared on behalf of the Government. Id. The Court heard the testimony
of Iowa State Trooper Matthew Raes, Council Bluffs Police Officer Kaiia Merchant, and

1

Soderman Appendix D1

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 2 of 14

Iowa District Associate Judge Charles Fagan. Id.; see also Witness List, ECF No. 34-2. The Court
received exhibits from both parties, including video of the traffic stop submitted by the
Government. Ex. List, ECF No. 34-1; Gov’t Exs. 1-6, ECF Nos. 36, 36-1 to 36-5; Def.’sEx. 101,
ECF No. 37-1.
The Court finds the following facts by a preponderance of the evidence for purpose of
considering Soderman’s motion. See United States v. Matlock, 415 U.S. 164, 177 n.14 (1974);
accord United States v. Long, 797 F.3d 558, 570 (8th C ir. 2015).
Around 7:30 a.m. on Saturday, July 7, 2018. Soderman was pulled over by Iowa State
Trooper Matthew Raes l'or going 72 miles per hour in a 55-miles-per-hour zone on Interstate 80 in
Council Bluffs. As Raes approached the vehicle, Raes noticed Soderman was tapping his steering
wheel nervously. Raes asked Soderman to step out of his car and sit in the patrol car while Raes
checked Soderman’s license. Soderman told Raes he was driving from Colorado to Minnesota to
visit his father and terminally ill stepmother. Raes observed Soderman had an unpleasant odor,
was unkempt, and had several snacks and energy drinks in his car. He also noticed two large duffel
bags and aftermarket wi res on the back scat and floor of the car.
Raes completed a records check on Soderman and discovered his license was suspended
for unpaid child support. Soderman told Raes he was current on his child support payments and
his license should not be suspended. Soderman showed Raes a bank statement on his phone to
demonstrate his child support obligations were current. Raes informed Soderman he could not
drive with a suspended license, his car would have to be towed and impounded, and Soderman
could call the Colorado DMV on Monday to inquire about his suspended license. Raes told
Soderman he could call a tow track for him and drive him to a gas station nearby. Soderman
expressed to Raes that he wished to arrange the towing himself and did not want Raes to arrange
it for him.
2

Soderman Appendix D2

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 3 of 14

Raes said he was going to step out of the car and speak to his supervisor. Raes instructed
Soderman to stay in his patrol car. Soderman asked Raes if he was detained. Raes responded:
“Yeah ... [yjou’re operating without a Driver’s License. You can go to jail for it, if you'd rather
go to jail.” When Raes stepped away from the vehicle, Soderman called his stepmother in
Minnesota and urgently implored her to come to Iowa to pick him up. Soderman then called a local
tow truck company and asked if they could tow his car to the border of Iowa and Minnesota, nearly
300 miles away. When Raes returned to his patrol car, Soderman told Raes lie would travel as a
passenger in the tow truck he called and would meet his parents on the road as they traveled from
Minnesota.
Raes had worked as an Iowa state trooper for about three years at the time he pulled
Soderman over. Raes testified he wanted to discuss what he perceived to be indicators of
drug activity with a more experienced officer. Raes therefore called Council Bluffs Police Officer
Kaila Merchant, who Raes knew had experience with narcotics trafficking, and asked her to assist.
About twenty minutes after the initial stop, Merchant arrived. Merchant had worked as a law
enforcement officer in New Hampshire for seven years and had joined the Council Bluffs
Police Department about one year prior to the time of this traffic stop. In New Hampshire,
Merchant had received training in drug interdiction.
Soderman told Merchant a tow truck was on its way. He said he planned to travel with the
tow truck and then meet his father and stepmother on the way to Minnesota. Soderman began to
describe his location to his father over the phone. Soderman stated, incorrectly, that his father
could drive south on Interstate 35 from Minnesota to reach Council Bluffs. Merchant offered to
speak to Soderman’s father and give him directions. Soderman gave his phone to Merchant.
Soderman’s father told Merchant he did not know his son was on his way to visit. Merchant asked
Soderman’s father if Soderman had a history of drug trafficking. Soderman’s father responded:
3

Soderman Appendix D3

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 4 of 14

“Well, not recently.” Merchant told Soderman’s father to delay leaving Minnesota until she further
assessed the situation. She said she would call Soderman’s father back in a few minutes.
Merchant asked Soderman if he was transporting drugs. Soderman said he was not.
Soderman told Merchant he had a problem with drugs in the past, but he had been clean for years.
Soderman denied consent for Merchant to search his car. He said he was embarrassed about the
contents of his car and did not want Merchant to see his belongings. He also told Merchant a search
would be a violation of his rights. Merchant told Soderman they were in a “tough spot” because
she perceived “red flags.” Merchant told Soderman she had probable cause to apply for a search
warrant to search his car and that she was going to call her sergeant for permission to do so.
Merchant also told Soderman she would call for a dog to sniff his car. Soderman told Raes that he
had recently smoked marijuana in his car and was concerned the dog would detect it. Merchant
received permission from her supervisor to seize Soderman’s car and to apply for a search warrant.
Soderman left the scene. The entire stop lasted about one hour and fifteen minutes.
Merchant prepared an application for a search warrant. Although Merchant had applied for
search warrants in New Hampshire, this application was the first she had completed in Council
Bluffs. Merchant prepared the application from a template she downloaded from the police
department’s shared drive. The template lacked a warrant page. The application included an
affidavit in support of the search warrant, in which Merchant listed reasons for finding
probable cause, and a statement in which Merchant named the place to be searched.
See Gov’t Ex. 2, ECF No. 36-1 at 1-5. The statement naming the place to be searched included
the license plate number and vehicle identification number of Soderman’s car. Id. at 6-7. The
warrant application also included an attachment listing the property to be seized. Id. at 8.
Merchant presented the warrant application to the Honorable Charles D. Fagan,
District Associate Judge for the Fourth Judicial District of Iowa. Because it was outside normal
4

Soderman Appendix D4

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 5 of 14

business hours, Merchant presented the warrant application to Judge Fagan at his home. Judge
Fagan reviewed the application and signed the affidavit in support of probable cause and the
statement of the place to be searched. Id. at 5, 7. Judge Fagan testified he found the warrant
application was supported by probable cause. He did not realize the warrant itself was missing.
After obtaining Judge Fagan’s signature, Merchant searched Soderman’s car. The search revealed
methamphetamine, a loaded pistol, magazines and ammunition, and a digital scale. Id. at 10-11.
Raes found Sodemian at a nearby motel and arrested him.
A federal grand jury later indicted Soderman on three counts: 1) possession with
intent to distribute a controlled substance in violation of 21 U.S.C. § 841(a)(1), (b)(1)(A);
2) prohibited person in possession of a firearm in violation of 18 U.S.C. §§ 922(g)(1),(3) and
924(a)(2): and 3) possession of a firearm in furtherance of drug trafficking in violation of
18 U.S.C. § 924(c)(1)(A). Redacted Indictment, ECF No. 2.

in.

LEGAL STANDARDS
Soderman moves to suppress evidence obtained from the traffic stop and the seizure and

search of his vehicle as well as the statements he made during the traffic stop. ECF No. 24.
Soderman argues the seizure and search of his vehicle violated his rights under the
Fourth Amendment and the officer’s questioning violated his rights under the Fifth Amendment.
Id.; Def.’s Br. Supp. Def.’s Mot. Suppress, ECF No. 24-1.
A.

Fourth Amendment

The Fourth Amendment to the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no Warrants
shall issue, but upon probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons or things to be
seized.

5

Soderman Appendix D5

Case l:18-cr-00044-RGE-HCA Document 38 Filed Oi/17/19 Page 6 of 14

U.S. Const, amend. IV. “fSjubject only to a few specifically established and well delineated
exceptions.” searches and seizures “without prior approval by judge or magistrate, are per se
unreasonable under the Fourth Amendment.” Minnesota v. Dickerson, 508 U.S. 366, 372 (1993)
(quoting Katz v. United States, 389 U.S. 347, 357 (1967)). Among those exceptions arc temporary
seizures of a person during a traffic stop when there is reasonable suspicion or probable cause, and
the search and seizure of an automobile when there is probable cause.
A traffic stop is a seizure subject to die protections of the Fourth Amendment.
Delaware v. Prouse, 440 1J.S. 648, 653 (1979). “[A] traffic stop is reasonable if it is supported
by either probable cause or an articulable and reasonable suspicion that a traffic
violation has occurred.” United States v. Chartier, 772 F.3d 539, 543 (8th Cir. 2014)
(quoting United States v. Washington, 455 F.3d 824, 826 (8th Cir. 2006)). “Reasonable suspicion
exists when an ‘officer is aware of “particularized, objective facts, which, taken together
with rational inferences from those facts, reasonably warrant suspicion that a crime
is being committed.

United States v. Givens, 763F.3d987, 989 (8th Cir. 2014)

(quoting United States v. Hollins, 685 F.3d 703, 706 (8th Cir. 2012)).
Under the automobile exception, a warrantless search of an automobile is permitted
when there is probable cause to believe the automobile contains evidence of criminal activity.
Carroll v. United States, 267 U.S. 132, 158-59 (1925); accord United States v. Davis,
569 F.3d 813, 817-18 (8th Cir. 2009). “Probable cause exists when, given the totality of the
circumstances, a reasonable person could believe there is a fair probability that contraband
or evidence of a crime would be found in a particular place.” United States v. Murillo-Salgado,
854 F.3d 407, 418 (8th Cir, 2017) (quoting United States v. Wells, 347 F.3d 280, 287
(8th Cir. 2003)).

6

Soderman Appendix D6

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 7 of 14

B.

Fifth Amendment

The Fifth Amendment to the United States Constitution provides: “No person , .. shall be
compelled in any criminal case to be a witness against himself.” U.S. Const, amend. V.
“|T]he prosecution may not use statements,.. stemming from custodial interrogation of the
defendant unless it” has warned the defendant “that he has a right to remain silent, that any
statement he does make may be used as evidence against him, and that he has a right to the presence
of an attorney.” Miranda v. Arizona, 384 U.S. 436, 444 (1966). A suspect is in custody when
“there is a ‘formal arrest or restraint on freedom of movement’ of the degree associated with a
formal arrest.” California v. Beheler, 463 U.S, 1.121, 1125 (1983) (quoting Oregon v. Mathiason,
429 U.S. 492,495(1977)).
IV.

DISCUSSION
Soderman asserts the contraband found in his car should be suppressed because his car was

seized and searched in violation of the Fourth Amendment. Specifically, he argues officers
impermissibly extended the traffic stop, and the impermissible extension resulted in the seizure
and search of this car. ECF No. 24-1 at 4-8. Soderman also asserts his statements during the traffic
Stop should be suppressed because he was not read his Miranda rights and the statements’
admission at trial would violate the Fifth Amendment. Id. at 8-10.
First, the Court finds the officers validly extended the stop on reasonable suspicion of
additional criminal activity. Second, the Court finds there was probable cause for Merchant to
seize and search Soderman’s car, making the search lawful under the automobile exception to the
Fourth Amendment’s warrant requirement. Finally, the Court finds Soderman was not in custody
and Miranda warnings were not necessary. Thus, the Court denies the Soderman’s motion to
suppress.

7

Soderman Appendix D7

Case i:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 8 of 14

A.

Fourth Amendment: Search and Seizure of Vehicle
1,

The extension of the traffic stop

Soderman argues Raes and Merchant did not have reasonable suspicion to extend the traffic
stop beyond its initial purpose. ECF No. 24-1 at 4. Without reasonable suspicion or probable cause,
Soderman contends, a traffic stop is not reasonable and therefore is a violation of the Fourth
Amendment. Id. at 5; See Chartier, 111 F.3d at 543. The Government argues the purpose
of the stop legitimately shifted from addressing a speeding violation to addressing a suspended
license to investigating suspected drug trafficking. Gov’t’s Br. Resp. Def.’s Mot. Suppress 5-6,
ECF No. 32.
A traffic stop constitutes a seizure and must be supported by probable cause orreasonable
suspicion. Chartier, 111 F.3d at 543. Authority for a traffic stop ends when matters connected to
the traffic stop are completed. Rodriguez v. United States, 135 S. Ct. 1609,1614 (2015). Running
a driver’s license for outstanding warrants is incident to an ordinary traffic stop. Id. at 1615;
seeatso United States v. Jones, 269 F.3d 919,924 (8th Cir. 2001) (“[A] police officer, incident to
investigating a lawful traffic stop, may request the driver’s license and registration ... [and, among
other things, may] request that the driver wait in the patrol car.”). “|T]he tolerable duration of
police inquiries in the traffic-stop context is determined by the seizure’s ‘mission’ — to address
the traffic violation that warranted the stop, and attend to related safety concerns.” Rodriguez,
135 S. Ct. at 1614 (citation omitted). An “officer may ask the detainee a moderate number of
questions... to try to obtain information confirming or dispelling the officer’s suspicions.”
Berkemer v. McCarty, 468 U.S. 420, 439 (1984). Safety checks or investigations unrelated
to the initial reason for the traffic stop may not prolong the stop, unless the officer has
reasonable suspicion “ordinarily demanded to justify detaining an individual.” Id. at 1615;
see also Illinois v. Caballes, 543 U.S 405,408 (2005).
8

Soderman Appendix D8

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 9 of 14

Here, the traffic stop lasted over one hour. Although one hour is a significant amount
of time for a traffic stop, the “mission” of the stop evolved over its duration. See Rodriguez.
135 S. Ct. at 1614. The initial putposc of the traffic stop was to address a speeding violation. After
Raes completed the records check on Soderman’s license, the slop’s purpose shifted to dealing
with Soderman’s suspended license. And while the officers discussed Soderman’s suspended
license and arranged for his car to be towed, they developed a reasonable, articulable suspicion of
drug trafficking. See Givens, 763 F.3d at 989.
Notably, Soderman's father indicated to Merchant that Soderman had been involved in
drug trafficking in the past. Merchant testified to other reasons for her suspicion of drug trafficking,
which included: Soderman’s nervousness, his large duffel bags, his dirty and disheveled
appearance, his father not knowing that Soderman was on his way to visit, the highly caffeinated
beverages in his car, his admission about his use of “hard drugs” in the past, his insistent
requests to smoke a cigarette, the large amount of cash in his wallet, and his reporting that he made
$50.00 an hour as a maintenance worker. See Merchant Police Report, Gov’t Ex. 4 at 1-2,
ECF No. 36-3. Merchant noticed all of these signs as she and Raes addressed the issue of towing
Soderman’s car.
Because the officers were Still working to address Soderman’s suspended license, the
questions they asked Soderman about drug trafficking did not unlawfully extend the duration of
the traffic stop. Even if the officers’ questions about transporting drugs extended the stop, the
officers had reasonable, articulable suspicion of drug trafficking and asked questions to confirm
or dispel those suspicions, which is permissible under the Fourth Amendment. See Berkemer,
468 U.S. at 439.
2.

The seizure and search of the car

Soderman argues Merchant had neither a warrant nor probable cause to seize and search
9

Soderman Appendix D9

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 10 of 14

his car, making the search unlawful. ECF No. 24-1 at 11. The Government puts forth several
reasons the seizure and search of Soderman’s car was lawful. ECF No. 32 at 8-11. The Court need
not consider all of the Government’s proffered justifications for the seizure and search, including
the Leon good faith exception, because Merchant’s actions were lawful under the automobile
exception.
‘Tor constitutional purposes, [there is] no difference between on one hand seizing and
holding a car before presenting a probable cause issue to a magistrate and on the other hand
carrying out an immediate search without a warrant. Given probable cause to search, either course
is reasonable under the Fourth Amendment.” Chambers v. Maroney, 399 U.S. 42, 52 (1970).
“fWJhen the automobile exception applies, the vehicle need not be immediately searched.”
United States v. Castaneda, 438 F.3d 891,894 (8th Cir.2006). “fW]arrantless searches of vehicles
by state officers have been sustained in cases in which the possibilities of the vehicle’s being
removed or evidence in it destroyed were remote, if not nonexistent.” Cady v. Dombrowski,
413 U.S. 433,441-42 (1973).
Based on the totality of circumstances, there was probable cause to search Soderman’s car.
“Probable cause is a fluid concept that focuses on ‘the factual and practical considerations
of everyday life on which reasonable and prudent men, not legal technicians, act.”5
United States v. Colbert, 605 F.3d 573, 576 (8th Cir. 2010) (quoting 'Illinois v. Gates,
462 U.S. 213, 231 (1983)). Soderman’s father told Merchant that Soderman had a history
of drug trafficking. There was a large amount of cash

in

Sodennan’s wallet.

Cf. Flora v, Sw. Iowa Narcotics EnPt Task Force, 292 F. Supp. 3d 875, 897 (S.D. Iowa 2018)
(finding officers had probable cause to arrest the defendant because a large amount of cash stowed
in a. vehicle indicated drug trafficking). Soderman stated he had used marijuana earlier that day.
Merchant and Raes observed that Soderman had an unkempt appearance and it seemed like he had
10

Soderman Appendix D10

Case 1:18-cr-00044-RG E-H CA Document 38 Filed 01/17/19 Page 11 of 14

not showered recently. They also noticed Soderman had aftermarket wires in the backseat
of his car, possibly indicating the vehicle had been manipulated to store drugs. The car also
contained energy drinks and snacks, suggesting Soderman had not stopped during his journey.
Cf. United States v. Cortez-Paiomino, 438 F.3d 910,913 (8th Cir. 2006) (finding probable cause
to search when officers saw large packages wrapped in cellphone in truck and smelled
a masking agent). Soderman was also adamant his car not be impounded locally and was insistent
he travel with his car to Minnesota because he was on his way to visit his terminally ill
stepmother — even though his father told Merchant he did not know' Soderman was on his way.
67. United States v. Ameling, 328 F.3d 443, 449 (8th Cir. 2003) (“| Apparently false statements
and inconsistent stories were sufficient to give the officers probable cause that the defendants
were involved in criminal conduct.”). Based on these circumstances, a reasonable person could
believe there was a fair probability that contraband could be found in Soderman’s car.
See Murillo-Salgado, 854 F.3d at 418.
Merchant’s decision to apply for a warrant docs not undermine the existence of probable
cause.1 A warrantless search of automobile is (awful w hen the car is initially seized, or at a later
time. Castaneda, 438 F.3d at 894. That Merchant could articulate her reasons for probable cause
in her affidavit for the warrant application supports the conclusion that the automobile exception
applies. See ECF No. 36-1 at 1-5. Judge Fagan's approval of Merchant’s warrant application

No warrant was actually issued — despite the judge’s probable cause determination. While there
wras probable cause to search Sodemian’s car and the automobile exception applied, applying for
a warrant was a prudent course of action: “(T]he informed and deliberate determinations of
magistrates empowered to issue warrants... are to be preferred over the hurried actions of
officers.” United States v. Ventresca. 380 U.S. 102, 105-106 (1965) (omission in original)
(quoting Aguilar v. Texas, 378 U.S. 108, 110 (1964)): see also United States v. Goff,
449 F.3d 884,886 (8th Cir. 2006) (“In light of the preference for warrants, we give great deference
to the magistrate judge’s determination of probable cause.”).
11

Soderman Appendix D11

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 12 of 14

further demonstrates there was probable cause to search Soderman’s car.
B.

Fifth Amendment: Questioning During Traffic Stop

Finally, Soderman moves to suppress the statements he made during the traffic stop.
Soderman argues he was in custody because Raes told him he was detained and because he was
later released, demonstrating his prior custody. ECF No. 24-1 at 10. Soderman asserts all
statements after the “initial questioning for identification and warrants” should be suppressed
because he was not read his Miranda rights. Id. The Government responds Miranda warnings were
not necessary because Soderman was not in custody during this temporary, investigatory' stop.
ECF No. 32 at 11-12.
Miranda warnings are required before custodial interrogations. In general, a suspect is not
in custody during a routine traffic stop. Berkemer.\ 468 U.S. at 440 (“(Similar to a Terry stop,
t]be... noncoercive aspect of ordinary traffic stops prompts us to hold that persons
temporarily detained pursuant to such stops are not ‘in custody’ for the purposes of Miranda.’’);
United States v. McCauley, 786 F.2d 888,890 (8th Cir. 1986) (“No Miranda warning is necessary
for persons detained for a Terry stop.”).
Roadside questioning “to determine (the detainee’s] identity and to try to obtain
information confirming or dispelling the officer’s suspicions” does not require Miranda warnings.
Berkemer, 468 U.S, at 439. But “(i]f a motorist who has been detained pursuant to a traffic
stop thereafter is subjected to treatment that renders him ‘in custody’ for practical purposes.
he will be entitled to the full panoply of protections prescribed by Miranda.” Id. at 440;
see also United States v. Pefayo-RueJas, 345 F.3d 589,593 (8th Cir. 2003) (finding a suspect was
not in custody when asked to step out of his car and comply with a pat down).
The Court must determine if Soderman’s freedom to leave was restricted beyond
what is expected during a traffic stop, such that Soderman was in custody. See Maihiason,
12

Soderman Appendix D12

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 13 of 14

429 U.S. at 495; see also Berkemer, 468 U.S. at 436 (“It must be acknowledged at the outset
that a traffic stop significantly curtails the ‘freedom of action’ of the driver . .. of the
detained vehicle.”).
Here, Soderman was not formally arrested. Raes asked Soderman to sit in his patrol car
and Soderman complied. Cf. Jones, 269 F.3d at 924 (finding that an officer asking a suspect to sit
in a patrol car was permissible during an investigatory stop). Soderman asked if he was detained
several times throughout his interaction with Raes and Merchant. At one point, Raes responded to
Soderman that he was detained and that he could go to jail if he wanted to go because he was
driving with a suspended license. At another point, Merchant told Soderman he was detained and
could not get his phone back from her until Raes finished writing Soderman’s traffic tickets.
There are distinctions, however, between being detained and being in custody. An officer
may detain an individual during a traffic stop in order to complete the investigation that
necessitated the stop. United States v. Coney, 456 F.3d 850, 857 (8th Cir. 2006) (noting the
“[officer] had the authority to check [defendant’s] license, and [his] van’s registration,
ask [defendant] about his destination and purpose, and request that [defendant] sit inside
the patrol car”). Such traffic stop detentions are temporary, and thus distinct from being in custody,
during which a suspect does not know when he will be able to leave. “The Supreme Court
has analogized roadside questioning during a traffic stop to a Terry stop, which allows an officer
with reasonable suspicion to detain an individual in order to ask ‘a moderate number of
questions... to try to obtain information confirming or dispelling the officer’s suspicions.’”
United States v. Rodriguez-Arreola, 270 F.3d 611, 617 (8th Cir. 2001) (quoting Berkemer,
468 U.S. at 439).
Although Soderman was detained, he was not in custody. Soderman’s interaction with the
officers consisted only of being asked questions aimed at confirming or dispelling the officers’
13

Soderman Appendix D13

Case l:18-cr-00044-RGE-HCA Document 38 Filed 01/17/19 Page 14 of 14

suspicions of criminal activity — first about a suspended license and then about possible drug
trafficking. Throughout this questioning, Soderman was told the end of the interaction was
imminent. Raes told Soderman he would drop him off at a gas station once Raes finished writing
his tickets. At another point, Merchant also told Soderman that his car was detained but he was
not, and that Soderman was free to leave after Raes finished writing his traffic tickets. “At no point
during [the] interval was [Soderman] informed that his detention would not be temporary.”
Berkemer, 468 U.S. at 441-42. Because Soderman was free to leave, he was not in custody.
Miranda warnings were not required. Therefore, introduction of his statements would not violate
his Fifth Amendment rights.
V.

CONCLUSION
Raes and Merchant lawfully extended Soderman's traffic stop because they had

particularized suspicion of drug trafficking. Merchant had probable cause to search Soderman’s
car and lawfully did so without a warrant. Soderman was not in custody when he was questioned.
For the foregoing reasons, admission at trial of the evidence found in Soderman’s car and the
statements Soderman made during the stop does not violate the Fourth and Fifth Amendments.
IT IS ORDERED that Defendant Chad Alan Soderman’s Motion to Suppress Evidence,
ECF No. 24, is DENIED.
IT IS SO ORDERED.
Dated this 17th day of January, 2019.
Linger
'RebeccaGi
United States District Judge

14

Soderman Appendix D14

t

f

*

APPENDIX E
7-7-18 TROOPER RAES REPORT
ENTERED 12-19-18

I

Case l:18-cr-00044-RGE-HCA Document 36-2 Filed 12/19/18
IOWA INCIDENT REPORT SUPPLEMENTAL
IOWA STATE PATROL - DIST 03

IOWA
STATE
yRATROl,

■

2025 HUNT AVE.
COUNCIL BLUFFS, 1A 51503
(712)328-5001

Paa^of 3

I *S3£,|

rwzjo’.c?

c

Case Number

Date or This Report

2018017730

07/07/2018

County in which Incident Occurred
POTTAWATTAMIE - 78

^

ORI Number

S
E

COUNCIL BLUFFS POLICE DEPARTMENT - IA0780100

I
N
F
O

Type o( Offeree
DRUG TRAFFICKING

Dels of Original Ocouirenc*
07/07/2018

Investigative Statue

Clearance Cia*»fica3on
f~l Unfounded

SuTk

Mttdto

FUJi
CHAO

Name - last
SODERMAN

Q Exceptionally Ctee-ed

0q«arad by Arielt

0 Open

□Cksed

□ Suspended

____________________ Narrative________ _______________________
a blade
observed H was travelin/above the posted speed limit-1 activated my front radar and confirmed that the vehicle was speeding_Tbe vefucte was

steering wheel and was toolting straight forward. He did not look over at me. I then got behind the vehicle and activated my emergency Ights to
perform a traffic slop The vehicle pulled over lo the rffiht shoulder.

^Se loT^forcS acSon. I told him to come back to my passenger seat. The driver ad meted to having pepper
tfdn
soTasked him to leave the keys in the vehicle in the center console for my safety. I observed a red bo#, and multiple mounta*1 riews In the front
of the vehicle. I also observed multiple snacks that were at the vehicle. I observed two big bags tn the back seat of the vehicle.

The driver wffiked M<* to the passes skto of my vehic*. Me.movtog myjstuff
standing by the vehicie

hts sunglasses

he'has8his vats information ready'to go as well. He then continued and pull out his information from his waBot about his van andbteI to.rtw-B
*"
tome. He then rartoomlysaid that he has not got a ticket in a tong time. He also told me that everything on his toeree
and valid" I ran him (Trough dispatch. He came back with a suspended driver's icensa. He said "that s Impossible . He said that he atorayspays
rtHeeontinued and said mat heis going to show me that he pays the child support. He continued mfotus mobile Ibanking app. Heegamseid

tilen *°imtc/h'Dco'tev^y nxlrdhTcoSd'seehh'n^t'was'vt^te'nse'He'nowtoid me'tlSt^heajSd^how'nS'every^^rSnffwTh^'lasMo'3
^
years.

a^n l rn Writ. did notwant to see anymore parents and he became apologeUc.

Then
anyo^t^
^ scmeomfinStuikopee (Minnesota) TO* would be 365 mites away trom out location and approximately 5 now* and 18 mwrtra

s* s^sr^T.r.szsirs

-

mSstThH2s^Httvtaaiv and A** hi* head. He said (hat he would be stranded 51 towed his car. I MmdNn t woutont

there. I then asked if he had a lot of clothes In his car and he said that he didn't and that he had two bags. I then asked what was in the trunk.
000046
W1M17TM
Farm#;
PM«
f* 3

Mind at: Iowa stats PATTIOL-DIST 03

Soderman Appendix Ei

l

I I

Case l:l8-cr-00044-RGE-HCA Document 36-2 Filed 12/19/18 Page 2 of 3
because I sew the bags taking up the whole back seat of the veMcte. He said that he works apartment maintenance. He stuttered while saying
that He also again began to breath heavy and move Ns hands more then he was previously wMe talking. He said that he brought the tools
because Ms dad always had jobs tor him to do. he then began tatting about his driver's license status again. He got a text on his phone and
quickly told me that It was hsi girlfriend. He then asked It he could take a selfte with me to send to his girlfriend. I explained i*d rather havo him
take a picture of my ear rather than me. He said that he understands, and he wouldn't want Ms picture taken either. Ha also then randomly told
me that his girlfriend was mad that he going to Minnesota because she thought that he was going to sleep with a lot of girls.

He began arguing with mo about not letting me tow Ms vehicle himself. He said that there Is no reason Brat cant tow It himself, i was going to
make a phone can and he wanted to exit the cer end listen to my phone caH, He 1hcn asked if he was being detained. Due to him becoming more
argumentative with me. I then decided to check him for weapons. He said Brat he would rather I didn't check hen tor weapons. But for officer
SBfety reasons I chocked Mm for weapons. No weapons were located on his person. After getting back into my patrol vehicle he said that he still
didni understand Ms license status. He now said that ne maybe missed one or two payments over the years. He now gave anoBrer option 01
what to do wan the vehicle. He wanted to tow It to the Minnesota border, after I just explained how tar away Minnesota was from out location. He
Bren said he was not trying to con me in anyway. He toM me that his Dad and Sue would come down to our location right now and Brat it wouldn't
be a problem. He now was saying that his parents would get in there car this very, second and would come down there, without even talkiig to
them first
While I was out of Bte vehicle he called Sue end told her Brat Her end his dad had to come to Iowa right now to pick him up. He was taking very
last and kept repeating, right now. He also called a tow truck on his own, wfrhout us requesting Mm to. He called and asked for a tow truck and
was askhg how tong It took. He fliought he was on Intrastate 35. He asked for the tow hut* driver to take Mm to the border of Iowa and
Mnnesola, which Bra tow truck driver informed him would not be possible.
Officer Merchant #760 arrived on scone to assist. He told Officer Merchant he called Ms own tow truck already. He was talking to them as we
came back to Bie vehicle. Ho again mentioned that Ns Dad's wife has brain and kxig eancor.He then told Officer Merchant that she Is tho one
coming to pick up the vehicle, even though he told me before that, mat she was dying. He said that she got ota ofthe Hosplai three days ago. Me
now said that she had a respiratory "Bring*. White saying that ho was stuttering and paused. He also said she had a staff infection. He said they
were on the way right now to come pick up the vehicle. Officer Merchant spoke with Ms Dad, Terry. I told him that we might want to tow it,
because he wouldn't be sate sitting on the shoulder. I said he can’t park it on the grass because of the possfoiffiy of fires as well. He said Brat we
were In Minnesota, not Colorado. I corrected hhr and reminded him that we were in Iowa. He now just wanted to wail with the vehicle and tow It
After saying Bris and telling Mm we earn do that because we would get 911 calls on him, he now wanted to tow it himself. Instead of wanting it
towed to the border, he now wanted to tow It himself to the gas station. He asked to go up to his vehicle for a drink. I told him I wtnJd go grab one
for Mm. He offered me a Mountain Dew. He adrnmed to having dry moutir and saying that he was thirsty.
I was tattling to Officer Merchant outside of the vehicle.. Officer Merchant told me that Ms dad did not know that he was coming up to Minnesota
today. Whfe speaking with Officer Merchant he was looking at us hi the mirror. Officer Merchant began taBiing to him again. He said that he was
insulted by al of Brls. Officer Merchant began talking to him and he began rubb'ng my dash. He also leaned forward retd became defensive. He
Bren told is that al he was doing was going to visit ns Grandma, but then corrected it to going to visit his stepmom.
He once agon brought up his driver's license status. Now he said that he didn't have this trip planned Wffit his dad to come up. He said Brat his
dad said that 11 didn't look good* for his stepmom. He said that he had to finish up work and then he went and that he was still wearing his work
clothes from when he last worked. He became very argumentative win Officer Merchant and talked over her multiple times. Officer Merchant
asked for consent to search the very and quickly, and loudly he said no. He then tried to change the subject and bring up Ns license again. He
now said that he Brought he was going to throw \jp. 1 observed a Marijuana leaf tattooed on his back. Officer Merchcsit again asked if there was
anything in the car and he said that his parents would not approve of Brat. He said that he denied the warrant because he has personal Bams in
Brere, Including sex toys. He also randomly thanks me for getting him the mountain dew from his car. Ha said that he wants to have his car towed
to a gas station. I asked what he would then do if they don't Nm there. He sNd Brat would get It towed to a different gas station. I once again
mentioned that he has a lot of money In his wallet and then he told me he also bad a tot of money that was in hte vehicle too because he was
paid $50 an hour.
I stepped outside of the veNcie and spoke with Officer Merchant.
Once again, he said that he was just trying to get to Ms stepmom and ses her before she wasn't here anymore. Officer Merchant was talking to.
him and he said that he wanted to step outside and have a cigarette. Officer Merchant then told him Brat mere Is a lot of things Biat a pointing to
something that we dorft normally run into. He said that he would agree wiffi that. He became defensive and became agitated and said he wanted
to go see his 'fucking* stepmom. He was becoming more agitated and put his head back on his seat and dosed Ns eyes. Officer Kaita Merchant
said that she was going to can her Sergeant. He said that he doesn't blame her Biat she is just doing her job. He said that if we towed and got a
search warrant and we didn't even find anything Bren maybe he wouldn't have to pay for the tow. She asked if thats what he wanted to do and he
quickly changed it and dkttfl waff to do that anymore. He said that vre should seize Ns car and get the search warrant and he would cry on Bie
side of Die road.
As soon as Officer Merchant closed Ore door and he said Brat what she was doing is Illegal. He admitted to her being able to' see Biat she Is
upset. He now admitted to smoking Marijuana In the vehicle. He admitted to smoking Marijuana in Ihe vehicle and asked how ho would "bear
that Ha said that the dog would smell it and that he would feel so utterly helpless. He said he gave up hard chugs, bul not Marijuana.
Officer Merchant told Mm that she was going to setae the vehicle and apply for a search warrant I Issued him a citation for driving without a valid
driver's license and for speeding. He talked over me as I was trying to explain the citations. He' asked multiple times to get stuff out of tho vehicle.
He wanted a case nuirfoer for hte Incident. Officer Merchant went to go wrle it down and I told him he could now smoke his cigarette. The al
action tow truck that he called showed up on the scene, Wb informed him that we did not call him and Biat we had a different tow Buck en routs.
He was released and walked easfbound along Interstate 80.
Arrow tow truck arrived on the scene. The doors, hood and trunk all had evidence tags placed over Biem and were initialed by Officer Merchant
They took possession of the veMcte.

Printed At: tow* STATS PATROt tnST to

Page

2013

Soderman Appendix E2

Form#:

000047
201*017731

1

\

Case l:18-cr-00044-RGE-HCA Document 36-2 Filed 12/19/18 Page 3 of 3

Ultor In the day I was contacted by Officer Merchant that she got a search warrant for the vehicle. I was fold that narcotics and a gun were
located inside of the vehicle. At around 14:20 hours I was in the ares of Underwood. I knew that the mala was last wafting eastbound on
Interstate 60. i located him at the Motet hi Undeiwofld. I waited for backup from a Pottawattamie County Sheriffs deputy. I made contact wffit the
male and placed Nm under arrest at around 1438. He had rocks in his pocket and said that some use the rocks he found for smoking but not
t*n. He now told a deputy that he was self employed. I read him his Miranda warning al 14:44 hours. I transported Mm to the Pottawattamie
County Jed. Me told me that he ordered en Uber and that the driver was dose. Becuase of this, I tei him answer his phone and slowed Wm to tell
the driver that she no longer had to wait for him. He asked what her probable cause for the search warrant was and I explained that B wll be on
the search warrant, even though Officer Merdiant had already explained that to him. He then asked if Officer Merchant was sleeping with the
Judge. I told Mm that wasn't an appropriate question. He then said that It Is a vald question. He then tdked to Ms brother on his phone. He told
Nm that ho was being arrested for "guns and drugs”. He fob me if he goes to jai1 today, there is notNng that tie can do (about taking wHh
Investigators). Ha then randomly said 1 don't run drugs” and I told Mm I didn't say he did. He said that he was Just saying. He also said thai
•whatever happened today" ho said that he works everyday and that he works hard. He said he is so tom right now, I asked him about what and
he said that he couldn't answer that question. He also asked If we had been watching him all day.

Vlfe arrived ai the Pottawattamie Cointy Jail He was booked into the Pottawattamie County Jail and charged by the Council Blufls Polk*
Department.

o
F
F
I
C
E

R

ComplainentlReportjng Party
(Signature)

Reporting Officer
RAESM
Aastattng Officer / Administrative Reviewer

Badge Number
120
Badge Number

Supervisor

Sedge Number

IndBet* Assigned to:
OFFICER MERCHANT CBPD

pnrrtMAC tow* state mtroi. ■ oist os

Page

arts

Soderman Appendix E3

feme:

SmESIt&S

'*

l

r1 V

<

APPENDIX F
7-7-18 BACKUP OFFICER MERCHANT REPORT
ENTERED 12-19-18

I

l< .1

,

Case l:18-cr-00044-RGE-HCA Document 36-3 Filed 12/19/18 Pi
IOWA INCIDENT REPORT SUPPLEMENTAL
COUNCIL BLUFFS POUCE DEPT
227 S6THST
COUNCIL BLUFFS, IA 51503
(712) 328-4715

ntmto

c
A
S
E
I
N

f

O

Cese Number
18-028631

County In wWch Incident Occurred
POTTAWATTAMIE-78

Date of This Repott
7/7/2018

081 Number
COUNCIL BLUFFS POUCE DEPARTMENT • IA0780100
Type ef Offense

Date of Ordinal Occurrence
7/7/2018
Name - Last
SODERMAN

INTENT TO DISTRIBUTE
Middle
ALAN

Firet
CHAD

Clearance Oassncstron
IT Unfounded

Suffix

fovestQdifce Status

Q ExeepSottiiSy Ctesred

n Open 12 Closed

Pbleared by Arrest

Q Suspended

Narrative
On July 7th. 20181 was working for the City of Council Skiffs PoBce Department and was assigned to the patrol division. At approximately 07451
was contacted by Trooper Matthew RAES (ISP #120) who stated he had a vehicle stopped <on ISO EB at the 8 mile marker and was requesting
assistance. I responded to his location and ha briefed me on the stop.
Tr. RAES staled he stopped the suspect vehicle (CO 445V\O0) for a speed violation and made contact with the operator Identified as Chad
SODERMAN
Tr. RAES stated os he approached the vehicle SODERMAN already had his paperwork slicking out the window for
the Trooper. Fronunytramtog and experience I know that subjects attempting to minimize polioo contact wil often times have their
documentation easily accessible. This is done to shorten their contact and detract attention from ihemselves by appearing to be law abiding. Tr.
RAES also stated SODERMAN'S hand was shaking as handed him his paperwork. Tr. RAES stated that he asked SODERMAN to exit his
vehicle and come sit into the front seat Of his cruiser whBe be rah his Information, He stated that SODERMAN became Hcreasingly nervous, but
did come sit in his cruiser.
Tr. RAES continued conversation with SODERMAN and asked for his license. When removing his (cense Tr. RAES noted a large sum of cash to
SODERMAN'S wallet. From my training and experience I am aware that those having large sums of cash are often involved in ilScil drug sales.
Tr. RAES ran SODERMAN'S license and found he was suspended out of Colorado. He notified SODERMAN of the suspension and he stated
SODERMAN'S demeanor changed drastically. He stated his speech was rapid, he was more animated and ft became dear that SODERMAN'S
level of nervousness was increasing.
Tr. RAES then asked SODERMAN where he was going. SODERMAN stated he was traveling from his home In Colorado to Minnesota for a
"quick trip" to visit Ns father, He stated h's step-mother was 51 end had Just been released from the hospital so he was going to visit. In the rear of
SODERMAN'S car were 2 large hockey duffel bags which was Inconsistent with a quick trip. The amount of luggage able to be contained In both
bags would appear to be for an extended visit or move. From my training and experience I also know that (Sid: dregs are commonly transported
In duffel bags for ease of movement and concealment. Tr. RAES also stated that he asked SODERMAN if there was any Illegal items In the
vehicle. SODERMAN admitted that he had marijuana to the vehicle several weeks prior as he Is a marijuana user.
After speaking with Tr. RAES I asked if I could speak with SODERMAN to which he agreed. SODERMAN was sealed in the front passenger seat
of Tr. RAES's cruiser at the lime. I made contact with SODERMAN and he immediately was displaying signs of nervousness beyond the typical
realm in which 1 see during a car slop. He was breathing rapidly as his chest was visibly rising end taping. He began speaking and Ns speech
was rapid and often times off topic. His appearance was disheveled and dirty as wel. From my training and experience I know this is common
among subjects transporting Illegal nnrootics as they waste no time stepping or changing clothes.
I asked SODERMAN what happened and he explained he dhfni realize Ms license was suspended. I asked what his plan was and he stated he
had his father coming from Minnesota to pits him up and he was contacting a tow company to tow his car from Council Bluffs to Minnesota . He
continued to say that he Was having the ear towed and repeated himself multiple times. II was dear his cofioem was keeping the vehlde In his
possession regardless of the cos! to low It across several states. His concern with the veWde was also an Indication that there was something of
value to him within the vehlde.
Tr. RAES suggested that be have it towed to the nearest gas stafron so it was off the highway and would be far less of a tow fee. SODERMAN
stated that he would rather have ft towed to the state line and have his father and step-mother meet him. I stated to SODERMAN that I thought
his step-mother was m and had recently left the hospital. He stated that she was, but was coming with Mrs father to pick SODERMAN up. This
also did not make sense astt SODERMAN had made he was going to vlsft her due to her poor health.
White speaXlng with SODERMAN his father, Terry, called. I offered to speak with TERRY to give his directions and explain the situation.
SODERMAN handed me his phone wtfmg end I spoke with TERRY. Hnttoduccd myself to TERRY and asked if SODERMAN was Iris son. He
stated that he was, but didn't know what was going on. I stated to him that SODEMAN had been slopped and there was a suspicion he was
transporting Segal narcotics, tasked TERRY if SODERMAN had a history of transporting drugs and he responded, "Weli, not recently". I then
asked TERRY if he knew that SODERMAN was coming out to visit. He Stated he had spoken to SODERMAN ebout 3 days earlier and
SODERMAN stated ho may be coming to visit, but didn't say when. He stated they made no plans and he had no idea SODERMAN was on his
way to TERRY’S house. The discrepancy to SODERMAN and TERRY’S stories ted me to believe that SODERMAN was not being tnrihful about
his actual destination.
After speaking wHh TERRY I returned to SODERMAN end explained there was concern tie was possibly transporting narcotics I asked If there
was any illegal lems to the vehicle and he slated Ihere was not Every time I brought up dregs to SODERMAN he immediately changed the
subject and began talking about his license suspension. From my training and experience I know this is a tactic used by suspects to deter lav/
enforcement from asking (lather questions about topics that are uncomfortable. SODERMAN than asked for his phone back, l slated to
SODERMAN that he was now being detained and could not harm hts phone at that time unfit I had completed my investigation.
nnrxea At:

council bluffs police de ft

Fib*

lots

Soderman Appendix F1

Forme:

fM>022

10029691

»'

J

>

y

Case l:18-cr-00044-RGE-HCA Document 36-3 Filed 12/19/18 Page 2 of 4
I retimed to SODERMAhTS vehicle end looked through the windows to see what I could observe in plain view. On ihe front passenger seal there
was a six pack of Mountain Dew energy drinks. From my training and experience I know that subjects transporting Illegal narcotics often times
have high caflelnsteti energy drinks in order to keep them awake during long drives. 1 also observed a package on the passenger floorboard
Which contained a loaf of broad and oritur snacks. This is also often common tor drivers transporting to have food in ihe'r vehicle to lessen the
amount of "stop' time, Lastly, I observed 2 aftermarket wires ranntog on the floor of the driver's side. After market wires are often associated with
vehicle hides teed to conoeal Illicit drugs during transport.
I returned to SODERMAN and stated I was now even more concerned after my observations of the inside of the vehicle that he may be
transporting drugs. He stated that he was a drag user at one point, but had been "dean* tor years. Vitoie speaking with SODERMAN he was
moving around in the from seat, scratching his head, rubbing bis nerk and fidgeting. From my training and experience I know that often tines
subjects who are experiencing imusuaily high levels of anxiety win unconsciously move, stretch or paoc in order to relieve their stress levels. I
asked SODERMAN where he obtained the large amount of cash In his possession. From my training and experience l knew that it Is common for
subjects transporting narcotics to make muttipte "drops1' on their trip In which payment in mads in large sums of cash.
SODERMAN stated he worked for a property management company and made $50.00 hr. I asked what he did for the company and he stated he
fixed up the rental properties for new renters. I found this hourly wage to be Inconsistent with my knowledge of what too average employee
makes hr this line of work. I stated my oonoem to SODERMAN and he then Changed his story and stated he owned a company, but worked for a
rental company. I asked SODERMAN if he had a business card for his company and ns elated ho did not SODERMAN asked multiple times to
smoke e cigarette as well. From my trailing and experience I know this benavtor Is indlcarive ot those subjects experiencing high levels of
anxiety. Throughout my interaction with SODERMAN he became increasing nervous and agiated.
I then stated to SODERMAN that 1 would like to make sure there was nothing Begat In his vehicle and asked for his consent to search. He stated
he did not consent to a search and didn't know why I would be asking. He stated ha was just driving to see his step-mother. He stated he left
work last night and was now driving to Minnesota. He stated he hadn't changed from work the previous day. it was dear from his unkempt
appearance and body odor that he had not changed or showered to some time. This also did not make sense to me because according to
SODERMAN he turd all night and this morning to shower or change his clothes and had not From my training and experience t know that those
transporting narcotics often times try to lessen their travel lime by staying tn the same clothing and not stopping for sleep, food or showers.
I stated to SODERMAN that I believed I had enough to seize his vehicle and obtain a search warrant i wanted to provide him one Iasi
opportunity to consent to a search so that his vehldo would not be impounded end his sick step-mother would not have to travel a great distance
to come pick him up. SODERMAN Stir refused a consent search, I told SODERMAN he was free to go after being issued several traffic citations
by Tr. RAES.
Based on the suspicious activity, the unusual behavior, the nervousness of SODERMAN. the inconsistent stories, his admission of recent drag
use, his father's statements and the signs consistent with transportation of illicit drags I beSeved there was probable cause to seize the vehide
and apply for a search warrant. As a result I caked Arrow Towing who responded to my location. The vehicle was secured and sealed with
evidence tape for integrity and towed to Arrow's impound lot.
I then applied for a search warrant for the vehicle, a green 2002 Saturn SL2 bearing Colorado Registration 445WDO (VIN 1GBZK527S2Z205542)
, which was present to The Honorable Judge FAGAN. The search warrant was approved and was executed at approximately 1215 pm tn the
Arrow Towing impound garage.
During the search of the vehicle a number of illegal Items were located to the rear trank of tho vohlete. The Items Included approximately 1.4
pound of crystal methamphetamrne, a Kettec 9mm hand gun with 3 loaded magazines, over a pound ot marijuana, 20* watches individually
packages and a muttitude of other drag paraphernalia items.
After executing the warrant I left a copy of the inventory sheet and warrant In rite vehicle. The items seized were transported back to the station
where they were placed Into evidence. A shed tine later I was notified by Tr. RAES that he had located SODERMAN on ISO. Based on the
evidence located in the vehicle I requested Tr. RAES a nest SODERMAN and transpod him to Pottawattamie County Corrections. I contacted Sgt
. RADFORD who stated he would have a member of VICE speak with SODERMAN on Monday if he was WHRng to talk about the incident
I responded to Corrections and processed SODERMAN where he was held with No Bond. I seized $3417.00 to cash from iris wallet as well as his
cel phone. The money was counted by Sgt. Jil KNOTEK as well. These Items were then entered into evidence.
Lastly. Arrow Towing was contacted and told SODERMAN S vehtdo could be released from the police hold.
EOR

O

F
F

Cernpiatoant'Raperting Party
(Signature)

I
C

E
R

Repoftng Officer
MERCHANT KAfLA

Badge Number

Ataie&ng Otoer/ Adrnintstratrva Reviewer

Badge Number

Supervisor
KNOTEK JULIAN

Badge Number

760

708

incident Assigned to:

Printed At: COUNCt BLUFFS POUCeOSR?

F*ge

.2*2

Soderman Appendix F2

000023
1I429&31

